                                                                UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               MIDDLE EAST REGIONAL OFFICE

                               The Bureau of Population, Refugees and
                               Migration’s Reintegration Assistance
                               Program for Refugees Returning to
                               Afghanistan

                               Performance Evaluation

                               Report Number MERO-I-11-10, July 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                                                UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

                             UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




                             UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

                                               UNCLASSIFIED



                                    TABLE OF CONTENTS


KEY FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     5

  Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5

  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           8

  Management Comments and OIG Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               8

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

REINTEGRATION ASSISTANCE FOR RETURNING REFUGEES . . . . . . . . . . . . . . .11

  United Nations High Commissioner for Refugees’ Activities. . . . . . . . . . . . . . . . . . . . . . .11

  Bureau of Population, Refugees and Migration’s Grants Program . . . . . . . . . . . . . . . . . . 13

  Afghan Government’s Land Allocation Scheme. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

PROGRAM MONITORING. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ROLE OF PROVINCIAL RECONSTRUCTION TEAMS IN

ASSISTING RETURNEES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

APPENDIX I – PURPOSE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . 25

APPENDIX II – COMMENTS FROM EMBASSY KABUL . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDIX III – COMMENTS FROM THE BUREAU OF POPULATION, 

REFUGEES AND MIGRATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29





        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011                 iv


                                               UNCLASSIFIED
                                         UNCLASSIFIED





v   OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                         UNCLASSIFIED
                                       UNCLASSIFIED




KEY FINDINGS


 • 	 Through its implementing partners, the United Nations High Commissioner
     for Refugees (UNHCR) and nongovernmental organizations (NGO), the
     Department of State (Department) has generally been effective in providing
     reintegration assistance to returning Afghan refugees, but finding long-term
     solutions for returnees remains significantly challenging.

 • 	 Because of the Afghan Government’s inability to provide adequate assistance
     to returnees, the international community mainly bears the burden.

 • 	 UNHCR’s initial assistance to returnees, which includes a medical examina­
     tion and a cash stipend, has been delivered through an orderly and efficient
     process.

 • 	 At their final destinations, UNHCR has been able to provide returnees with
     materials and money to build shelters. Since 2002, more than 1.1 million
     returnees, or nearly 25 percent of those who repatriated, have benefitted from
     this shelter program, but it has been hampered by the lack of land ownership
     as well as land disputes.

 • 	 To support both returnees and communities that are receiving them,
     UNHCR funds a limited number of income generation and water projects
     that can build capacity, offer incentives, and stabilize the communities.

 • 	 The Bureau of Population, Refugees and Migration (PRM) has effectively
     used its grants programs to fill gaps and unmet assistance needs to returnee
     populations, including skills training, basic education, shelter, water and sani­
     tation, gender-based violence programs, income generation, health services,
     and agriculture programs.

 • 	 The Afghan Government’s Land Allocation Scheme (LAS), aimed at provid­
     ing plots of land to returnees, has been mismanaged and has not met its
     goal of providing land to support a basic livelihood for returnees. For these
     reasons, UNHCR has withdrawn its funding support to the LAS, and PRM
     and UNHCR now attempt to fill the assistance gap with shelter materials,
     water projects, and other income generating programs.

 • 	 PRM and UNHCR have mechanisms to monitor the delivery of assistance
     to returning Afghan refugees, but because security concerns limit access to
     approximately half of the country, they often have to rely on third-party
     proxies for information from the field.


  OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   1


                                       UNCLASSIFIED
                                          UNCLASSIFIED


    • 	 There are gaps in assistance and a disparity in the living situations of some
        returnees and members of absorbing communities, which have not been
        evaluated.

    • 	 Provincial reconstruction teams (PRT) are inconsistently involved in tracking
        issues faced by returnees and in reporting to Embassy Kabul.




2    OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                          UNCLASSIFIED
                                          UNCLASSIFIED




INTRODUCTION


Decades of conflict in Afghanistan led large numbers of Afghans to leave their coun­
try from the 1970s to 1990s, resulting in one of the biggest refugee displacements
in history. Since 2002, more than 5 million Afghans have returned to Afghanistan.
In some areas with the highest number of returns, as many as one in three persons
is a returnee. The reintegration of so many returnees has put a strain on receiving
communities, the Afghan Government, and the international donor community. A
successful returnee reintegration program is critical to U.S. Government efforts to
stabilize Afghanistan.

The Middle East Regional Office (MERO) of the Office of Inspector General (OIG)
initiated this evaluation under the authority of the Inspector General Act of 1978, as
amended, to determine whether PRM, through its implementing partners, UNHCR
and NGOs, is effectively managing the reintegration program in Afghanistan. The
objectives of this evaluation were to determine: (1) whether assistance is reaching
intended target populations; (2) how PRM monitors its implementing partners to
ensure program objectives are being achieved; and (3) the effectiveness of Embassy
Kabul, including staff stationed throughout the country, in managing and coordinat­
ing the humanitarian response, and the role PRTs play in supporting these efforts.

In developing this evaluation, OIG met with officials from PRM, UNHCR and
other UN agencies, the International Committee of the Red Cross, and Embassy
Kabul. OIG traveled to Kabul, Herat, Barikab, and Jalalabad and observed assistance
projects and visited with returnees. The OIG team participated in meetings with
Afghan Government officials from various ministries, including the Ministry of
Refugees and Repatriation, and with provincial and local government officials. OIG
also met with officials from U.S. and coalition military forces, PRTs, and the U.S.
Agency for International Development (USAID), located in the Afghan provinces
that are monitoring the condition of and providing assistance to local communities
with returnees.




     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   3


                                          UNCLASSIFIED
                                         UNCLASSIFIED





4   OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                         UNCLASSIFIED
                                          UNCLASSIFIED




EXECUTIVE SUMMARY 


RESULTS
The Department, through its implementing partners, UNHCR and NGOs, has
been generally effective in providing reintegration services to returning Afghans,
but considerable challenges remain in finding durable solutions for many returnees.
According to the Department, those refugees who returned between 2002 and 2005
have reintegrated into their local communities with few major difficulties. However,
more recent returnees have found increasingly less land, shelter, livelihoods, and
family to which to return. The international community continues to assist returnees
because the Afghan Government does not always have the capacity to provide basic
services and Afghan ministries have not always included refugee needs in planning
and budgeting. Corruption, coupled with a demand for services that far exceeds
resources, exacerbates these problems. Weak Afghan institutions cannot handle land
disputes or prevent human rights abuses.

Initially, upon the refugees’ return to Afghanistan, UNHCR has been able to
provide important assistance through an efficient and orderly process. This assistance
includes a medical examination and a cash stipend which can be used to purchase
basic items and cover the cost of transportation back home. In certain instances,
UNHCR also provides food, cooking oil, and non-food items, such as cooking
utensils and blankets. Once returnees arrive at their final destinations, UNHCR has
also been able to provide reintegration support, most notably shelter, with a program
begun in 2002. Since that time, UNHCR has provided materials and money for shel­
ters to approximately 200,000 families and benefited more than 1.1 million people.
The shelter program has assisted nearly 25 percent of returnees, but the lack of land
ownership and land disputes have hampered provision of shelter for many returnees.
To equitably support returnees and local communities, UNHCR also funds a limited
number of income generation and water projects, which can build capacity and offer
incentives to receiving communities to absorb the returning refugees. This assistance
can also stabilize the communities and help prevent fighting over scarce resources.
Examples of these projects include cleaning and rehabilitating irrigation canals; help­
ing to establish vegetable gardens, home-based poultry projects, and sewing coopera­
tives; and providing water points for potable water.

PRM grants effectively provide gap-filling assistance to meet needs including
skills training, basic education, shelter, water and sanitation, gender-based violence
programs, income generation, health, and agriculture. From 2007 to 2010, PRM
awarded 57 grants, totaling $51 million, to NGOs in 15 Afghan provinces. Grants
are often used to develop sustainable livelihood opportunities for women, and are


     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   5


                                          UNCLASSIFIED
                                              UNCLASSIFIED



    credited with providing badly needed assistance to vulnerable returnee populations.
    PRM’s efforts have improved water and sanitation infrastructure, health care access,
    and awareness of women’s rights and access to justice systems. In interviews, return­
    ees expressed appreciation and satisfaction with these services and acknowledged the
    programs help ensure their survival.

    The Afghan Government developed the LAS initiative in 2005-2006 to address
    the needs of landless returnees. However, this Afghan-led initiative has suffered
    from mismanagement and corruption and has been largely ineffectual in providing
    returnees with land capable of sustaining a basic livelihood. As of January 2011, for
    more than 266,000 applicants only 38,000 plots of land had been distributed and
    only 9,200 families had moved onto their land. UNHCR initially provided fund­
    ing to the Afghan LAS committee, which was supposed to identify and develop
    land sites. However, according to Embassy Kabul and UNHCR officials, selected
    sites many times were located far from towns or markets, in areas without access
    to water. Further, according to embassy officials, the initiative has been plagued by
    credible allegations of land speculation and distribution of desirable plots to unquali­
    fied applicants. The OIG team found that returnee communities generally received
    little assistance from the Afghan Government other than the initial land allotment.
    UNHCR and PRM-funded NGOs have attempted to fill gaps by providing shelter
    materials, water projects, and livelihood programs. The embassy’s refugee coordina­
    tor acknowledged that the LAS sites are inadequate to support a durable solution
    for most returnees, and noted that PRM is using its grants program to mitigate the
    situation. UNHCR has withdrawn financial and technical support to the Afghan
    LAS, and is now providing direct assistance to returnees living at the nine sites.

    Although PRM and UNHCR have mechanisms to monitor the delivery of assistance
    to returning Afghan refugees, the unstable security environment has restricted access
    to approximately 50 percent of the country. Threats to staff members of international
    organizations and NGOs have limited their presence in the field, which limits their
    ability to directly oversee program implementation. Thus, in addition to international
    organization and NGO staff, PRM and UNHCR often have to rely on Afghan
    representatives, such as local elders, village councils (shuras), district and provincial-
    level government officials, and occasional media reports for information on the
    condition and situation facing returnees.

    At the beginning of each year, UNHCR conducts a needs assessment and devises a
    country operations plan. The PRM refugee coordinator at Embassy Kabul formally
    reviews this plan twice a year and provides feedback on areas such as achievement
    of performance targets, frequency of program monitoring, and areas of weakness or
    ongoing challenges. UNHCR provides updates, evaluations, and reports; and repre­
    sentatives from Embassy Kabul and Washington-based PRM officials also conduct
    periodic site visits. However, providing cash assistance alleviates the need for the type
    of monitoring required by infrastructure and livelihood projects.


6        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                              UNCLASSIFIED
                                          UNCLASSIFIED



PRM has faced challenges in getting Department approval and necessary logistical
support to conduct site visits to monitor and assess the outcomes of its grant program.
Of the 57 grants awarded from FY 2007-2010, PRM staff visited 47 projects once
each and never directly visited 10. Ninety-three percent of projects were also evalu­
ated using progress reports, emails, and telephone calls. Security concerns, as well as
thin staffing and other duties in the refugee coordinator’s office at Embassy Kabul,
have limited project monitoring. In addition, the short terms of many projects do
not always allow enough time for assessment. OIG found gaps in assistance, with
returnees living in makeshift shelters on barren land having little opportunity to earn
a livelihood. Review of documents and interviews revealed a disparity of living situa­
tions between some returnees and community members. However, there has been no
evaluation of the current situations of former refugees with their receiving communi­
ties several years after return. The ability of returnees to exercise their legal rights,
including those related to property, is a systemic problem throughout Afghanistan,
and is of particular concern.

Although some PRTs facilitate Embassy Kabul in assessing humanitarian assistance
to returning refugees, these efforts are not consistent among PRTs. The level of effort
depends on PRT members’ perception of whether monitoring refugee reintegration
is part of the PRT mandate, as well as the number of returnees in a given area; the
security situation; the local political climate; provincial development conditions; and
the size, staffing, and location of the PRT. Among the PRTs that work with return­
ees, OIG observed PRT members working with Afghan Government officials, NGO
representatives, and community leaders. Staff from these PRTs conducted visits to
local villages and met with provincial and district development committees. These
PRTs also interact frequently with UNHCR to discuss ongoing operations, and some
PRTs fund programs that complement other returnee assistance programs. Embassy
Kabul officials also noted that PRTs regularly facilitate travel of PRM representa­
tives. A number of PRTs reported they do not manage or coordinate humanitar­
ian assistance to returnees because it is not part of their mission, the military has
taken the lead, or international organizations are providing assistance to returnees.
Embassy officials indicated that participation and increased reporting by PRTs would
better support U.S. Government policy. PRT members reported that they are not
adequately trained in identifying issues related to returnee assistance, either before
deployment or in-country.




     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   7


                                          UNCLASSIFIED
                                              UNCLASSIFIED



    RECOMMENDATIONS



       RECOMMENDATION 1: OIG recommends that the Bureau of Population,
       Refugees and Migration, in coordination with the Special Representative for
       Afghanistan and Pakistan, conduct a protection, legal, and welfare parity
       survey of Afghan returnees and their receiving communities to determine
       whether a durable reintegration solution has been achieved. (Action: PRM, in
       coordination with S/SRAP)




       RECOMMENDATION 2: OIG recommends that Embassy Kabul task
       civilian staff assigned to consulates and provincial reconstruction teams to
       routinely observe and assess the situation of returning Afghan refugees in their
       provinces, advise on coordination and humanitarian assistance issues, interact
       with local and provincial Afghan representatives to advocate for inclusion of
       refugees needs into community planning, and report regularly to the embassy
       on these efforts. (Action: Embassy Kabul)



    MANAGEMENT COMMENTS AND OIG RESPONSE
    Embassy Kabul and PRM provided formal written comments, which are included
    verbatim in Appendix II and III, respectively. The embassy stated that it plans to
    issue guidance in the summer of 2011 to PRT officials to familiarize them with and
    recommend reporting on refugee matters. The embassy further noted that, with the
    support of PRTs, PRM has been able to conduct monitoring in parts of Afghanistan
    where UNHCR does not have access. PRM concurred with both recommendations
    in this report, noting that efforts are underway to gather data to determine whether
    a durable solution for returning refugees has been achieved. PRM also stated it will
    coordinate with relevant parties to address recommendation 2.




8        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                              UNCLASSIFIED
                                            UNCLASSIFIED




BACKGROUND


The reintegration program for returning Afghan refugees, administered by UNHCR,
is the largest assisted returnee reintegration project in history. With the end of the
Soviet occupation of Afghanistan in 1989, UNHCR started an assisted repatria­
tion and reintegration program in Pakistan and later extended the program to Iran
and other countries farther away. The program has continued because of additional
periods of flight from Afghanistan during the Taliban regime and the U.S. military
campaign after the 9/11 attacks. Between 2002 and 2010, more than 5.6 million
refugees have returned to Afghanistan, increasing the estimated population inside
Afghanistan by more than 20 percent. (Since 2001, large numbers of Afghans have
also been internally displaced by drought, natural disasters, and conflict.) UNHCR’s
role in voluntary returnee reintegration is to facilitate safe return and the provision
of initial reintegration assistance to the approximately 4.5 million registered refugees
who have returned. Table 1 summarizes the returning refugee population from 2002
to 2010.


Table 1: Voluntary Repatriation of Returning Afghan Refugees from 2002-2010
(in thousands)*

                               From                                          From Other
         Year                                         From Iran                                          Total
                              Pakistan                                        Countries
         2002                           1,565.1                    259.8                     9.7              1,834.6
         2003                             332.2                   142.3                      1.2                475.7
         2004                             383.3                    377.1                     0.7                 761.1
         2005                             449.4                     63.5                     1.1                 514.0
         2006                             133.3                       5.3                    1.2                139.8
         2007                             357.6                       7.0                    0.7                365.3
         2008                             274.2                       3.7                    0.6                278.5
         2009                              48.6                      6.0                     0.2                  54.5
         2010                             104.3                      8.4                     0.1                112.8
         Total                         3,647.7                    873.1                    15.5               4,536.3
*Because the numbers in this table do not include “spontaneous” (non-UNCHR-assisted) returns, the total is less than
the 5 million returnees noted elsewhere in this report.
Source: UNHCR

From 2002 through 2010, PRM contributed approximately $350 million to
UNHCR for assistance to Afghan refugees and for advocacy and support for volun­
tary returnees. UNHCR is the lead international organization responsible for assist­
ing repatriating Afghan refugees and supervising the reintegration process, based on


       OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   9


                                            UNCLASSIFIED
                                                      UNCLASSIFIED



     two tripartite agreements, one among Afghanistan, Pakistan, and UNHCR; and a
     second among Afghanistan, Iran, and UNHCR. UNHCR also provides strategy and
     institutional capacity support to the Afghan Ministry of Refugees and Repatriation.
     Support to returnees has included cash grants, transportation, and non-food
     household items to assist in their journey back home. Once settled, returnees and
     their receiving communities are provided assistance for a limited period to support
     improvements in shelter, health, sanitation, education, livelihoods, and infrastructure.
     Table 2 shows the total amount of PRM funding from FY 2002-2010, to support
     Afghan returnees.

     Table 2: Bureau of Population, Refugees and Migration Assistance to Returning
     Afghan Refugees, Total from FY 2002-2010 (in thousands)

                                                                 MRA
            Country                      MRA a                                                 ERMAb                        Total
                                                              Supplemental
         Afghanistan                              $0.78                        $29.50                                               $30.28
         Pakistan                                  2.30                           1.00                                                    3.30
         Regionalc                               267.27                         39.80                      10.00                     317.07
         Total                                $270.35                         $70.30                     $10.00                    $350.65
     Source:
     a
       MRA: Migration and Refugee Assistance
     b
       ERMA: Emergency Refugee and Migration Assistance
     c
       Regional includes funding for Afghanistan, Pakistan, and Iran


     In addition to providing funding to UNHCR, PRM implements a grants program
     with NGOs to provide direct assistance to returnees that augments or fills gaps in
     assistance provided by UNHCR and the international community. Since 2007,
     PRM has expended more than $50 million on approximately 60 projects, including
     the construction of healthcare facilities, staffing and provisioning of health clinics,
     improvement of water and sanitation infrastructure, legal assistance and referral
     services for vulnerable women and girls, and income-generating projects such as
     tailoring, kitchen gardening, and animal husbandry.

     Finally, PRTs1 also play a role in the reintegration of returning refugees. Located
     throughout Afghanistan, PRTs serve as the eyes and ears of Embassy Kabul in the
     provinces. There are 27 PRTs in Afghanistan, 11 operated by U.S. military forces and
     16 by other coalition countries. The embassy’s refugee coordinator uses the PRT field
     reporting capability to monitor some returnee populations.



     1
       PRTs in Afghanistan are led by military officers supported by teams of specialists, which typically include
     civilians from the Department, USAID, and other U.S. Government agencies. These small joint civilian-
     military teams work in provinces across the country to improve security, expand the reach of the Afghan
     Government, and assist with reconstruction. 



10               OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                                      UNCLASSIFIED
                                            UNCLASSIFIED



REINTEGRATION ASSISTANCE FOR
RETURNING REFUGEES

The Department, through its implementing partners, has been generally effective
in providing reintegration services to returning Afghans but significant challenges
remain to finding durable solutions for many returnees.2 According to Department
reporting, the majority of those who returned between 2002 and 2005 have been
able to reintegrate into their local communities with few major difficulties. However,
because of the worsening security situation since 2006 and other important factors,
those who have returned more recently have had progressively less to return to in
terms of land, shelter, livelihoods, and family. According to UNHCR reporting,
the early return period was largely driven by positive developments in Afghanistan
and mostly involved those most capable and willing to return home. Since 2006,
the reasons for returning were increasingly influenced by negative conditions in
host countries such as the deteriorating security condition in the border regions of
Pakistan, higher food and rent prices, and pressure by the Government of Iran on
Afghan refugees and economic migrants to depart.

The burden of providing assistance to returnees continues to fall largely on the
international community and little progress has been made in getting the Afghan
Government to assume responsibility for the provision of basic social services.
According to embassy reporting, the extremely low capacity of the Afghan
Government at all levels, exacerbated by corruption and demand for services that
overwhelmingly exceeds the supply of resources, makes the Afghan Government a
difficult partner. Further, Afghan institutions are too weak to properly deal with land
disputes; prevent human rights abuses; and provide for social services, livelihoods,
and security; which are cited among the main reasons for lack of integration.

UNITED NATIONS HIGH COMMISSIONER FOR REFUGEES’
ACTIVITIES

UNHCR effectively supports returnees with initial assistance to meet important
needs in the first months of return. The OIG team visited UNHCR’s Kabul encash­
ment center (where newly arrived repatriating returnees are received), and reviewed

2
  A durable solution is achieved when returnees no longer have any specific assistance and protection needs that
are linked to their displacement, and they are afforded their human rights without discrimination because of
their displacement.




       OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   11


                                            UNCLASSIFIED
                                                 UNCLASSIFIED



     program documents and management control procedures, and concluded that
     UNHCR has put in place an orderly and efficient process to assist in reintegrating
     returnees. When a returnee first arrives back in Afghanistan, UNHCR provides the
     individual with a medical examination and a cash stipend. (Beginning in 2011, the
     per capita stipend was increased from $100 to $150.) This assistance allows returnees
     to procure basic items of immediate need when reaching their final destination and
     covers the cost of transport to their province in Afghanistan. In certain instances,
     particularly vulnerable returnees are also given food stuffs, cooking oil, and non­
     food items, such a cooking utensils and blankets. The OIG team observed UNHCR
     officials collecting and destroying returnees’ refugee identification cards to prevent
     returnees from coming back to obtain a second stipend. In Pakistan, UNHCR also
     gathers biometric information on Afghan returnees to help prevent repeat applica­
     tions for return stipends. As indicated in Table 3, these initial cash grants to returnees
     represent UNHCR’s largest area of reintegration assistance.
     Table 3: United Nations High Commissioner For Refugees Assistance
     Expenditures, FY 2002-2009*

               FY                 Cash Grants                    Shelter                Livelihoods                    Water
              2002                      $35,800,000                 $31,625,799                $3,971,034                  $3,511,712
              2003                         6,400,000                 25,410,248                  8,794,391                  5,204,729
              2004                        17,400,000                  19,753,419                2,982,836                   4,130,626
              2005                        13,000,000                 12,984,607                  1,906,156                  1,170,335
              2006                         3,800,000                 13,250,314                  2,328,519                  1,067,675
              2007                        35,500,000                   7,997,223                   582,974                    268,299
              2008                        27,700,000                 13,995,362                    643,407                  1,179,709
              2009                         5,800,000                 12,307,871                  1,174,898                      19,019
              Total                   $145,400,000               $137,324,843                $22,384,215                $16,552,104
     Source: UNHCR

     *FY 2010 expenditures not available.


     UNHCR also provides initial reintegration support once individuals have arrived at
     their final destination. According to UNHCR surveys with returnees, shelter is the
     most important need for reintegration, and is the second main area of support to
     returnees. Since UNHCR started a large scale shelter program in 2002, UNHCR has
     provided shelters to approximately 200,000 families (mainly in rural areas), benefit­
     ing more than 1.1 million people. UNHCR does not build homes for returnees but
     supports them by providing shelter packages which include essential construction
     materials, such as tools, roofing beams, doors, and windows. The shelter program
     also includes cash assistance to cover additional material and labor expenses.
     Although the shelter program has been credited with providing nearly 25 percent of
     the assisted returnee population with shelter, the lack of land ownership and land
     disputes involving returnees have hindered provision of shelter for many returnees.


12          OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                                 UNCLASSIFIED
                                           UNCLASSIFIED



In addition to the substantial cash grant and shelter programs, UNHCR also funds
a limited number of income generation and water projects as part of its strategy of
equitable support to returnees and local communities. Embassy officials told OIG
that these activities support the capacity of receiving communities to absorb return­
ees, and in some cases offer incentives to welcome returnees. PRT officials told the
OIG team that this community-based model can serve as a stabilization tool and
helps prevent fighting over scarce resources. The OIG team observed projects that
cleaned and rehabilitated irrigation canal systems, thereby improving agricultural
production in surrounding communities as well as providing badly needed daily
wage labor to returnees. OIG observed other examples of income generation projects
including small scale vegetable gardens, home-based poultry projects, and sewing
cooperatives. Finally, UNHCR helped construct approximately 10,000 water points
in high return areas. Potable water is an overwhelming need throughout Afghanistan,
but it is an acute problem in returnee areas hit by drought and at sites designated for
returnees by the Afghan Government.

BUREAU OF POPULATION, REFUGEES AND MIGRATION’S
GRANTS PROGRAM
PRM has been effective in using its grants program to fill gaps and unmet assistance
needs to returnee populations, including the provision of skills training, basic educa­
tion, shelter, water and sanitation, gender-based violence programs, income genera­
tion, health services, and agriculture programs. From 2007 to 2010, PRM awarded
57 grants, totaling $51 million, to NGOs active in 15 returnee-dense provinces
throughout Afghanistan.3 These grants have often been aimed at women to develop
sustainable livelihood opportunities through technical and vocational training,
apprenticeship opportunities, and to create cash for work opportunities. Although
often only in the $500,000-$1,000,000 range and lasting 12-18 months, according to
representatives of the embassy and donor organizations, and PRT civilian and mili­
tary officials in the provinces, these small, targeted grants are credited with providing
badly needed assistance to vulnerable returnee populations. Table 4 on the following
page summarizes PRM’s grants program by sector.




3
  PRM partners primarily with international NGOs such as the Catholic Relief Services, International Medical
Corps, Church World Service, Tearfund, United Methodist Committee on Relief, the International Rescue
Committee, and the Norwegian Refugee Council, as well as a growing number of smaller Afghan NGOs.



      OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   13


                                           UNCLASSIFIED
                                                   UNCLASSIFIED


     Table 4: Projects in Afghanistan Funded by the Bureau of Population, Refugees and Migration,
     FY 2007-2010

                                                                                                 Sectorsa
                     Total          Projects                                                    Basic           Income     Other
      FY           (millions)       Awards        Shelter       Water           Health        Education        Generation Sectorsb
      2007                  $7.5       12            3             1               2                3                5                 2
      2008                 10.6        15            2             3               3                4                14                9
      2009                  17.8       17            3             4               6                3                17                9
      2010                  15.1       13            0             3               5                3                19                5
      Total                 $51        57            8            11              16               13                55                25
     a
       Some projects provide assistance in multiple sectors.

     b
      Other sectors include gender-based violence, agriculture, economic development, transportation, irrigation, literacy, 

     support to local governments, and enhancement of infrastructure for the Afghan Government’s Land Allocation

     Scheme (LAS).

     Source: OIG analysis of PRM data

     The OIG team reviewed program documents and end of project evaluations and
     travelled to eight field locations in four provinces to monitor PRM-funded projects
     in support of returnees. PRM’s efforts have improved water and sanitation infrastruc­
     ture, increased access to health delivery systems, and enhanced awareness of women’s
     rights and access to justice systems. Returnees told the OIG team of their apprecia­
     tion and satisfaction with the services funded by PRM and credited these programs
     with helping to ensure their survival. For example, in Jalalabad, OIG spoke with
     women who had participated in hands-on agriculture and animal husbandry train­
     ing. The returnees stated that they had acquired useful vocational skills that enabled
     them to earn critically needed income. However, some returnees expressed concerns
     about the lack of continuing income opportunities in their communities and whether
     sufficient assistance would continue in the future. Figure 1 shows two PRM-funded
     assistance projects in Jalalabad.
     Figure 1: The photo on the left shows a medical clinic in Jalalabad funded by
     the Bureau of Population, Refugees and Migration, and the photo on the right
     shows a poultry management training class.




     Source: OIG



14            OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                                   UNCLASSIFIED
                                          UNCLASSIFIED



AFGHAN GOVERNMENT’S LAND ALLOCATION SCHEME
Beginning in 2005-2006, the Afghan Government developed the Land Allocation
Scheme (LAS) initiative as a means to address the particular needs of vulnerable
landless returnees. However, from its inception, this Afghan-led initiative has suffered
from mismanagement and corruption and has been largely ineffectual in meeting
its goal to provide plots of land capable of sustaining a basic livelihood for returnees.
As of January 2011, for more than 266,000 applicants only 38,000 plots of land
have been distributed and only 9,200 families have moved onto their newly acquired
pieces of land.

At the request of the Afghan Government, UNHCR initially provided funding to
cover office expenses and salaries and other technical assistance to the Afghan LAS
committee. The committee was responsible for identifying and developing sites for
settling newly arriving returnees. According to Embassy Kabul and UNHCR offi­
cials, the committee’s poor effort in conducting land feasibility studies resulted in the
selection of sites (see Figure 2 on the following page) that lacked basic infrastructure,
such as water and roads, or the opportunity to make a living. Many sites were located
far from towns or markets, often in desolate, infertile areas. Further, according to
embassy officials, the initiative has been plagued by credible allegations of land
speculation by Afghan Government officials and distribution of desirable plots of
land to unqualified applicants.

The OIG team visited two LAS sites and spoke with returnees and found that
returnee communities generally received no assistance from the Afghan Government
other than the initial land allotment. UNHCR and PRM-funded NGOs have
attempted to fill the assistance gap by providing shelter materials, water projects,
and livelihood programs. The returnees told the OIG team that that many people
assigned plots will not occupy their land because of the lack of basic public services
including transportation, water, and health clinics. The embassy’s refugee coordina­
tor acknowledged that the LAS sites are inadequate to support a durable solution for
most returnees, and that PRM is using its grants program to mitigate the difficult
situation at some LAS sites. UNHCR officials stated that they have withdrawn their
financial and technical support to the Afghan LAS committee and are using a small
portion of UNHCR funding to provide direct assistance to returnees living at the
nine sites.




     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   15


                                          UNCLASSIFIED
                                               UNCLASSIFIED



     Figure 2: Land Allocation Scheme Sites in Afghanistan





     Source: PRM





16        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                               UNCLASSIFIED
                                            UNCLASSIFIED




PROGRAM MONITORING


PRM and its main implementing partner, UNHCR have put in place mechanisms
to monitor the delivery of assistance to returning Afghan refugees. However, the
difficult security environment which includes an active insurgency and widespread
criminality, has restricted field access to approximately 50 percent of the country.
Threats against foreign nationals working with international organizations and
NGOs have limited the presence and field input critical to effective monitoring.4
As a result, PRM and UNHCR often rely on remote proxies, such as local elders,
village councils (shuras), district and provincial-level government and NGO officials,
and occasional media reports, to provide information on the condition and situation
facing returnees.

At the beginning of each year, UNHCR’s main Kabul office and its sub-offices
conduct a needs assessment and devise a country operations plan with input from
implementing partners and key stakeholders, including Afghan Government offi­
cials and donor countries. The PRM refugee coordinator based at Embassy Kabul,
formally reviews the country operations plan twice a year and provides feedback
on 40-50 substantive areas, such as achievement of critical performance targets,
frequency of program monitoring, and areas of weakness or ongoing challenges. In
addition, UNHCR provides operational updates, policy papers, evaluations, fact
sheets, and situation reports throughout the year. Staff members from the refugee
coordinator’s office at Embassy Kabul and Washington-based PRM officials also
conduct periodic site visits to stable returnee areas of Afghanistan to monitor
UNHCR assistance activities and meet with returnees to discuss their living condi­
tions. OIG notes that the need to implement a more robust monitoring mechanism
has been eased by a policy decision to provide cash grants to returning refugees,
rather than assist returnees with basic infrastructure projects and job opportunities
designed to reintegrate them into their home communities. Offering cash assistance
mitigates the need to conduct and monitor large scale logistical operations associated
with infrastructure projects and provision of jobs.

PRM’s ability to monitor and measure the impact of its grants program has been
variable. Of the 57 grants that were awarded from FY 2007-2010, PRM staff visited
47 projects once each. Ten projects were never directly visited by PRM staff. Ninety-
three percent of projects received interim and end-of-project evaluations through

4
  In July 2010, six militants armed with suicide bombs stormed a compound in Kunduz, 175 miles north of
Kabul, of an American aid contractor working for USAID, killing four security personnel in an assault that left
all the attackers dead.




       OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   17


                                            UNCLASSIFIED
                                                 UNCLASSIFIED



     reviews of progress reports, emails, and telephone calls. In addition to security
     concerns that have restricted travel to returnee areas, the refugee coordinator’s office
     at Embassy Kabul is thinly staffed and has many other coordinating, reporting, and
     representational duties that limit the amount of time available to monitor grant­
     ees. Further, according to PRM officials the short length of many projects (often
     1 year) has not allowed enough time for implementation, monitoring, and impact
     assessment.

     In spite of significant reintegration efforts to make the return of Afghan refugees
     sustainable, there are still gaps in assistance at many settlement sites with returnees
     living on barren land, in makeshift shelters, and with little opportunity to earn
     a livelihood. In addition to large-scale returns, since the 1979 Soviet invasion,
     Afghanistan’s population has grown from around 15 million to more than 25
     million, making traditional livelihoods much less viable for much of the population.
     The OIG team’s review of reporting documents and interviews with returnees and
     members of receiving communities indicates a disparity of living situations between
     some returnees and community members. According to PRM officials, no evalua­
     tions have ever been conducted to determine how former refugees’ current situations
     compare with their receiving communities several years after return. A key concern
     is whether returnees are able to exercise their legal rights, including property rights.
     For example, according to the Brookings Institution, a key indicator for measuring
     progress in Afghanistan is determining the percentage of returnees with secure title
     to their house and land.5




     5
      Afghanistan Index: Tracking Variables of Reconstruction & Security in Post 9/11 Afghanistan, Ian S. Livingston,
     Heather L. Messera, and Michael O’Hanlon, February 28, 2011.



18          OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                                 UNCLASSIFIED
                                          UNCLASSIFIED



ROLE OF PROVINCIAL
RECONSTRUCTION TEAMS IN
ASSISTING RETURNEES

OIG determined that although approximately half of PRTs in Afghanistan assist
Embassy Kabul in coordinating and managing humanitarian assistance for returnees
and reporting on their situation, these efforts are not consistent among PRTs. This
variance can be attributed to the PRT’s perception of its responsibility for assisting
with returnee reintegration, as well as the level of security, local political climate,
development conditions in the province, and the size and location of the PRT. With
the exception of a humanitarian assistance session during the 1-week training course
for outgoing PRT members at the Foreign Service Institute, the members stated they
received no training on their responsibilities with regard to returnees. Finally, PRTs
reported they only informally measure the effectiveness of reintegration efforts.

OIG administered a survey of all 27 PRTs in Afghanistan to determine their role in
returnee reintegration assistance. OIG received 19 responses—a 70 percent response
rate. Of the 19 PRTs that responded, 10 reported involvement with assistance for
returning Afghan refugees. The OIG team visited three PRTs, with robust and varied
roles. OIG observed PRT members interacting with Afghan Government officials,
NGO representatives, and community leaders. To support Embassy Kabul, PRT
members visited, observed and assessed the returnees’ and receiving communities’
and met with provincial and district development committees to identify gaps in
coverage and recommend projects. The OIG team met with PRT representatives who
facilitate and accompany Embassy Kabul’s refugee coordinator on periodic monitor­
ing visits to PRM-sponsored returnee support projects.

OIG’s observation and review of records confirmed that active PRTs interact
frequently with UNHCR, especially in provinces with a large number of returnees
and a large UNHCR presence (for example, Balkh, Herat, and Nangarhar), to
discuss ongoing operations, such as the sudden influx of returnees from Pakistan
after the significant flooding in that country in late 2010. PRT members also meet
regularly with the provincial directors of the Ministry of Refugees and Repatriation
and the Ministry of Rural Rehabilitation and Development, both of which are key
ministries in the development of LAS sites and returnee receiving communities. In
discussions with UNHCR and returnees, OIG learned some PRTs fund programs
that complement current returnee programs, such as a community midwife program
in three provinces which helps fulfill health service needs of returnees and commu­
nities. In Herat, the PRT reported that Afghan Government entities undertake


     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   19


                                          UNCLASSIFIED
                                                 UNCLASSIFIED



     outreach activities to oversee development and reconstruction activities in communi­
     ties. However, PRT members are also active in numerous committees and work
     with the Afghan Government, the United Nations, international organizations, and
     NGOs to coordinate and facilitate development and humanitarian assistance.

     In survey feedback, nine PRTs reported that for various reasons they have not been
     involved in this effort. For example, PRT Laghman stated it does not manage or
     coordinate the humanitarian response to returnees because this response is not part
     of its mission. PRT Kapisa reported that military units in its region have taken the
     lead on reintegration. The PRT in Kunduz stated that international organizations
     such as the UN provide assistance to returnee reintegration and grant and reconstruc­
     tion projects.

     Through interviews with the refugee coordinator’s staff, OIG found that in the past,
     PRTs were involved very little and only informally in helping the embassy promote
     and monitor reintegration and provide reintegration assistance. Although the level
     of assistance from some PRTs has grown, the refugee coordinator at Embassy Kabul
     characterized the current level of involvement as a missed opportunity to serve as
     PRM’s additional eyes to assess local situations and assistance projects. For example,
     PRTs could evaluate how government programs affecting returnees are integrated
     into provincial governance and budget planning documents. The OIG team noted a
     few instances of good communication, exchange of ideas, and rapport between the
     refugee coordinator at the embassy and PRT members, as well as evidence that the
     local officials, NGO representatives, and returnees in the provinces and communities
     were well acquainted and receptive to PRT staff and their contributions. However,
     PRM officials expressed a need for “whole of government” interest in returnees, to
     include assistance efforts by PRTs. PRM noted that it normally works through the
     interagency provincial affairs section6 at the embassy to reach out to PRTs. Embassy
     officials also reported, however, that the PRT model is falling out of favor with
     Afghan Government officials who consider PRTs to be “parallel structures” to coali­
     tion governments. Initial U.S. Government plans for post-transition Afghanistan
     envisage more traditional embassy platforms such as consulates rather than PRTs.

     OIG reviewed guidance given to PRT members before deployment and found
     no official tasking to address returnee issues. OIG also reviewed the PRT course
     curriculum to determine what information is included on returnee issues and PRM
     programs, and determined that the only formal instruction on the returnee reintegra­
     tion process is a PRM presentation at the Foreign Service Institute given at PRT field
     orientation classes. PRTs also reported that they have no formal means to measure
     reintegration effectiveness. PRT members noted that they tend to measure the success

     6
      The interagency provincial affairs section coordinates the work of PRTs. The section is staffed by employees
     from the Department, the U.S. Department of Agriculture, USAID, and the Department of Defense. This
     section reports directly to an ambassador at the embassy, the coordinating director for development and
     economic affairs.



20          OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                                 UNCLASSIFIED
                                          UNCLASSIFIED


of programs informally thorough public, government, and media feedback; patrols in
areas; direct observations; meetings with elders; and consultations with local minis­
tries, community leaders, and Afghan Government officials.




     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   21


                                          UNCLASSIFIED
                                          UNCLASSIFIED





22   OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                          UNCLASSIFIED
                                           UNCLASSIFIED




ABBREVIATIONS


Department                           Department of State
LAS                                  Land Allocation Scheme
MERO                                 Middle East Regional Office
NGO                                  nongovernmental organization
OIG                                  Office of Inspector General
PRM                                  Bureau of Population, Refugees and Migration
PRT                                  provincial reconstruction team
UNHCR                                United Nations High Commissioner for Refugees
USAID                                U.S. Agency for International Development




      OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   23


                                           UNCLASSIFIED
                                          UNCLASSIFIED





24   OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                          UNCLASSIFIED
                                          UNCLASSIFIED



APPENDIX I – PURPOSE, SCOPE, AND
METHODOLOGY

MERO initiated this work under the authority of the Inspector General Act of
1978, as amended, to determine whether PRM, through its implementing partners,
UNHCR and NGOs, are effectively managing the reintegration and resettlement
program in Afghanistan. The objectives of this review were to determine: (1) whether
assistance is reaching intended target populations; (2) how PRM monitors its
implementing partners to ensure program objectives are being achieved; and (3) the
effectiveness of Embassy Kabul, including staff stationed throughout the country, in
managing and coordinating the humanitarian response, and the role PRTs play in
supporting these efforts.

In developing this assessment, the OIG team interviewed officials in Washington,
DC; Kabul, Afghanistan; and other locations in Afghanistan. OIG met with
Department officials from PRM in Washington, DC; embassy personnel in Kabul,
and Afghan officials and NGO representatives in various provinces in Afghanistan.
OIG conducted extensive discussions with the refugee coordinator at Embassy Kabul,
the refugee specialist, USAID officials, representatives from PRTs, and other officials
involved in providing assistance to returnees.

OIG met with senior officials from UNHCR and participated in meetings with
numerous representatives from the Afghan Government, including officials from
the Ministry of Refugees and Repatriation; Ministry of Women’s Affairs; Ministry
of Agriculture, Irrigation and Livestock; Ministry of Rural Rehabilitation and
Development; and provincial and district government entities. The team also met
with officials from the United Nations Office for the Coordination of Humanitarian
Affairs, United Nations-HABITAT, and the International Committee of the Red
Cross, as well as with a wide range of NGO representatives whose organizations are
providing assistance to Afghanistan returnees.

OIG reviewed PRM’s and UNHCR’s expenditure data, and program planning and
performance measurement documents. The team reviewed contribution letters to
UNHCR, the PRM-UNHCR Framework Agreement, UNHCR’s country operation
plans, PRM monitoring and evaluation procedures, and UNHCR policy papers, fact
sheets, and situation reports. OIG analyzed UNHCR’s appeals and progress reports
to assess actual assistance provided. OIG also reviewed strategic planning and cluster
performance indicators. OIG was given a demonstration of UNHCR’s results-based
management system, reviewed UNHCR’s global performance targets and indicators,
and gathered testimonial evidence from UNHCR staff on performance measures.


     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   25


                                          UNCLASSIFIED
                                               UNCLASSIFIED



     Additionally, the OIG team reviewed PRM-funded cooperative agreements with
     NGOs for projects in Afghanistan and relevant program monitoring and evalua­
     tion reports. The team conducted several site visits and participated in interviews
     with returnees/beneficiaries and community male and female shuras. The team also
     participated in meetings with provincial government officials and an Afghanistan
     Provincial Development Committee. OIG also reviewed how PRM coordinates
     its returnee assistance program with USAID’s assistance to internally displaced
     persons. Finally, the OIG team attended an embassy-sponsored meeting with
     Afghan Government representatives and assistance donors, and a military-civilian
     roundtable discussion on how U.S. Government and NGO assistance providers can
     work together to deliver necessary assistance, build capacity, and sustain assistance to
     returning refugees.

     OIG conducted this performance evaluation from July 2010 to March 2011. OIG
     did not use computer-processed data to perform this evaluation. OIG conducted
     this performance evaluation in accordance with the Quality Standards for Inspection
     and Evaluation issued in January 2011 by the Council of the Inspectors General on
     Integrity and Efficiency.

     This report was prepared under the direction of Richard “Nick” Arntson, Assistant
     Inspector General for MERO. The following staff members conducted the review
     and/or contributed to the report: Patrick Dickriede, Kelly Herberger, Kristen
     Jenkinson, and Mable Stanford.




26        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                               UNCLASSIFIED
                                           UNCLASSIFIED



APPENDIX II – COMMENTS FROM
EMBASSY KABUL

                                                                        May 26, 2011

UNCLASSIFIED
INFORMATION MEMORANDUM

TO:                   Richard Arntson, Assistant Inspector General for Middle East Region

FROM:                 Ambassador Karl W. Eikenberry

SUBJECT:              Performance Evaluation of the Bureau of Population, Refugees and
                      Migration’s (PRM) Reintegration Assistance Program for Refugees
                      Returning to Afghanistan.

Embassy Kabul appreciates the opportunity to provide the following formal
response to the Office of the Inspector General (OIG) Middle East Regional Office’s
Performance Evaluation of PRM’s Reintegration Assistance Program for Refugees
Returning to Afghanistan.

In order to enhance Provincial Reconstruction Team (PRT) coordination with the
Refugee Coordinator, Embassy Kabul will have the Refugee Coordinator send out
email guidance through the office of Interagency Provincial Affairs in July, August
and September to PRT officers to familiarize them with refugee matters, and to add
a section to the PRT Intelink site that would provide updates on refugee returns.
Coordination with PRTs should be focused in areas of high return in Regional
Command-East and the central region, and areas where PRM is funding projects.
We recommend that reporting on refugee matters be sent from these PRTs as regular
reporting cables.

In addition, the draft states that “PRM and UNHCR … [have] restricted access to
approximately 50 percent of the country.” In fact, while UNHCR has limited field
access, PRM has been able to conduct monitoring in areas (such as the border cross­
ing point at Spin Boldak, Kandahar) with PRT support where UNHCR does not
have access.

We would like to thank OIG for a strong report, welcome the proposed evaluation
of returnee need. We will work to ensure the PRT elements of the report can be
adapted to existing practices.



      OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   27


                                           UNCLASSIFIED
                                          UNCLASSIFIED





28   OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                          UNCLASSIFIED
                                          UNCLASSIFIED



APPENDIX III – COMMENTS FROM
THE BUREAU OF POPULATION,
REFUGEES AND MIGRATION

                                                         United States Department of State

                                                                      Washington, D.C. 20520



                                                                      July 12, 2011

MEMORANDUM

TO: OIG-MERO – Nick Arntson, Assistant Inspector General, Middle East
Region

THROUGH: PRM – Kelly Clements, Deputy Assistant Secretary

FROM:                PRM/ECA – Tom Hushek, Director

SUBJECT:     Draft Performance Evaluation – Reintegration Assistance
Program for Refugees Returning to Afghanistan

The Bureau of Population, Refugees, and Migration (PRM) would like to thank the
Office of the Inspector General – Middle East Regional Office (OIG-MERO) for
the opportunity to provide comments on the draft Performance Evaluation (Report
Number MERO-I-11-10, _____ 2010) regarding “The Bureau of Population,
Refugees and Migration’s Reintegration Assistance Program for Refugees Returning
to Afghanistan.”

PRM appreciates the attention OIG has paid to humanitarian assistance issues in
Afghanistan and believes the report makes a positive contribution to our ongoing
efforts. PRM also appreciates the attention OIG-MERO placed on the question of
effectiveness of PRM’s reintegration assistance to returning refugees, as well as the
thorough understanding as outlined in the report of the obstacles to achieving viable
long-term solutions for returnees. Through its contributions to the United Nations
High Commissioner for Refugees (UNHCR) and cooperative agreements with



     OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011   29


                                          UNCLASSIFIED
                                               UNCLASSIFIED



     nongovernmental organizations (NGOs), PRM will continue to work to ensure that
     our funds are being used effectively for reintegration of returning refugees.

     PRM agrees that working with civilian staff assigned around the country to observe
     and assess the situation of returning Afghan refugees, advise on coordination and
     humanitarian assistance issues, interact with local and provincial Afghan representa­
     tives, and report regularly on these efforts would usefully complement the work of
     the Refugee Coordinator. PRM will coordinate with Embassy Kabul, SRAP, and
     others to address this recommendation.

     As the report recognized, the need exists to conduct a survey of Afghan returnees
     and their receiving communities to determine whether a durable reintegration solu­
     tion has been achieved. Several efforts are underway to gather preliminary data
     and a comprehensive evaluation of this data will be conducted in coordination with
     UNHCR, SRAP, and Embassy Kabul.




30        OIG Report No. MERO-I-11-10 - PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan - July 2011


                                               UNCLASSIFIED
UNCLASSIFIED





UNCLASSIFIED

         UNCLASSIFIED





FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




         UNCLASSIFIED

